250 VESEY STREET • NEW YORK, NEW YORK 10281.1047
TELEPHONE: +1.212.326.3939 • FACSIMILE: +1.212.755.7306
Direct Number: (412) 394-9528
lfdejulius@jonesday.com

December 28, 2020
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

The Sherwin-Williams Company v. Delaware County, et. al. (U.S.)

Dear Mr. Harris:
I am counsel of record for Petitioner The Sherwin-Williams Company in the abovecaptioned case.
Pursuant to this Court’s Rule 35.3, I write to notify the Court of the following automatic
substitutions of Respondents, as certain defendants sued in their official capacity either no longer
hold office or their official title has changed:
•

Defendant John P. McBlain, former Chair of the County Council of the County of
Delaware, Pennsylvania, has been automatically substituted with Respondent
Brian P. Zidek, in his official capacity as Chair of the County Council of the
County of Delaware, Pennsylvania;

•

Defendant Colleen P. Morrone, former Vice Chair of the County Council of the
County of Delaware, Pennsylvania, has been automatically substituted with
Respondent Dr. Monica Taylor, in her official capacity as Vice Chair of the
County Council of the County of Delaware, Pennsylvania;

•

Defendant Michael Culp, former member of the County Council of the County of
Delaware, Pennsylvania, has been automatically substituted with Respondent
Elaine P. Schaefer, in her official capacity as member of the County Council of
the County of Delaware, Pennsylvania;

•

Defendant Brian P. Zidek, former member of the County Council of the County
of Delaware, Pennsylvania (and current Chair), has been automatically substituted
with Christine A. Reuther, in her official capacity as member of the County
Council of the County of Delaware, Pennsylvania;

AMS TERDAM • ATL ANTA • BEIJING • BOS TO N • BRISBANE • BRUSSEL S • CHICAGO • CLEVEL AND • COLUMBUS • DALL AS • DETROIT
DUBAI • DÜSSELDORF • FRANKFUR T • HONG KONG • HOUS TON • IRVINE • LO NDON • LOS ANGELES • MADRID • MELBOURNE
MEXICO CIT Y • MIAMI • MIL AN • MINNEAPOLIS • MOSCOW • MUNICH • NEW YORK • PARIS • PER TH • PITTSBURGH • SAN DIEGO
SAN FRANCISCO • SÃO PAULO • SAUDI ARABIA • SHANGHAI • SILICON VALLEY • SINGAPORE • S YDNEY • TAIPEI • TOKYO • WASHINGTON

Mr. Scott S. Harris, Clerk
December 28, 2020
Page 2
Defendant-Respondent Kevin M. Madden continues in his role as member of the County Council
of the County of Delaware, Pennsylvania.
Additionally, pursuant to this Court’s Rule 12.6, I hereby notify the Court of Petitioner’s
belief that the following entities and persons have no interest in the outcome of the Petition for a
Writ of Certiorari, as they were dismissed from the action in the U.S. District Court for the
Eastern District of Pennsylvania and did not participate in the proceedings before the U.S. Court
of Appeals for the Third Circuit that are the subject of this petition:
•
•
•
•
•
•
•
•
•
•
•
•

County of Erie, Pennsylvania;
County of York, Pennsylvania;
Dr. Kyle W. Foust, in his official capacity as County Council Chairman of the
Erie County Council;
Fiore Leone, in his official capacity as County Vice Chairman of the Erie County
Council;
Kathy Fatica, in her official capacity as Finance Chairwoman and member of the
Erie County Council;
Carol J Loll, in her official capacity as Finance Vice Chairwoman and member of
the Erie County Council;
Andre R. Horton, in his official capacity as Personnel Chairman and member of
the Erie County Council;
Carl Anderson, III, in his official capacity as member of the Erie County Council;
Scott R. Rastetter, in his official capacity as member of the Erie County Council;
Susan Byrnes, in her official capacity as President of the Board of Commissioners
for York County, Pennsylvania;
Doug Hoke, in his official capacity as Vice President of the Board of
Commissioners for York County, Pennsylvania;
Chris Reilly, in his official capacity as a member of the Board of Commissioners
for York County, Pennsylvania

I have provided a copy of this letter to all parties.

Mr. Scott S. Harris, Clerk
December 28, 2020
Page 3
Respectfully submitted,
/s/ Leon F. DeJulius, Jr.
Leon F. DeJulius, Jr.
Counsel for Petitioner
The Sherwin-Williams Company
cc:
County of York
Attn: County Solicitor
28 E. Market Street, 2nd Floor
York, PA 17401
Susan Byrnes
Doug Hoke
Chris Reilly
York County Board of Commissioners
28 E. Market Street, 2nd Floor
York, PA 17401
Erie County
Attn: County Solicitor
Erie County Courthouse
140 West Sixth Street, Room 114
Erie, PA 16501
Dr. Kyle W. Foust
Fiore Leone
Kathy Fatica
Carol J. Loll
Andre R. Horton
Carl Anderson, III
Scott R. Rastetter
Erie County Council
140 West Sixth Street, Room 114
Erie, PA 16501

Mr. Scott S. Harris, Clerk
December 28, 2020
Page 4
David S. Senoff
First Law Strategy Group
121 South Broad Street, Suite 300
Philadelphia, PA 19107
dsenoff@firstlawstrategy.com
Counsel for Respondents County of Delaware,
Brian P. Zidek, Dr. Monica Taylor,
Kevin M. Madden, Elaine Paul Schaefer,
Christine A. Reuther

